                            Federal Emergency Management Agency
                                        Office of Inspector General – Audits Division
                                                Western District Audit Branch
                                                 1111 Broadway, Suite 1200
                                               Oakland, California 94607-4052



                                                   January 15, 2003


MEMORANDUM FOR:                     Jeff Griffin
                                    Regional Director, Region IX




FROM:                               Robert J. Lastrico
                                    Western District Audit Manager
SUBJECT:                            Los Angeles County Department of Public Works
                                    Alhambra, California
                                    FEMA Disaster Number 1046-DR-CA
                                    Public Assistance Identification Number 037-91012
                                    Audit Report Number W-08-03


The Office of Inspector General audited public assistance funds awarded to the Los Angeles
County Department of Public Works, Alhambra, California (Department). The objective of the
audit was to determine whether the Department expended and accounted for FEMA funds
according to Federal regulations and FEMA guidelines.

The Department received an award of $3.3 million from the California Office of Emergency
Services (OES), a FEMA grantee, for damage resulting from severe winter storms, mud and land
slides, and flooding that occurred from February 13, 1995, to April 19, 1995. The award
provided for 75 percent FEMA funding for 16 large projects and 90 small projects.1 The audit
covered the period February 1995 to April 2000. We judgmentally selected and audited nine
large projects with an award of $2,047,060, including costs associated with employee benefits.
For the remaining seven projects, we limited our review to determining the reasonableness of the
$464,697 claimed by the Department for employee benefits costs. We also reviewed Federal,
State, and local compliance with grants and program management requirements. The attached
exhibit provides details of the 16 large projects audited.




1
    According to Federal regulations in effect at the time of the disaster, a large project was defined as a project
    costing $43,600 or more and a small project was defined as one costing less than $43,600.
We performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to generally accepted government auditing standards. The audit included tests of
the Department’s accounting records, a judgmental sample of project expenditures, and other
auditing procedures we considered necessary under the circumstances.

                                     RESULTS OF AUDIT

The Department’s claim contained $162,735 in questionable costs (FEMA share - $122,051)
consisting of $148,522 of costs beyond the scope of an approved project and $14,213 of
unsupported costs.

A. Work Beyond the Scope of an Approved Project. The Department’s claim under project
   11441 included $148,522 for work that was beyond the scope of the approved project. In
   July 1995, an OES/FEMA inspection team (including a FEMA geotechnical engineer)
   accompanied a Department representative to the affected area and conducted an inspection of
   the site to determine the damage. In December 1995, the Department completed a
   geotechnical investigation of the road failure and recommended a retaining wall structure
   with pile installation procedures complying with the County’s Standard Specifications for
   Public Works Construction. The report stated that the structure should consist of soldier
   piles with wood or concrete lagging. In January 1996, FEMA and OES agreed on the
   required repair as documented in the project narrative. The narrative indicated the following
   scope of work:

           The County [Department] proposes to construct a pre-drilled bulkhead H-pile
           retaining wall with tie-back system and concrete lagging. In our opinion, the
           tie-back system is not required. The proposed wall will be about 10 feet high
           and piles will be imbedded in the bedrock. Therefore, the wall should have
           adequate capacity without the need for a tie-back system. This is also
           discussed in the Geotechnical narrative attached to this narrative. A treated
           timber lagging should also be adequate instead of the concrete lagging. The
           scope of this DSR [project] is therefore limited to 95 feet by 10 feet high
           H-pile retaining wall with timber lagging and no-tie-backs. Approximately
           1,235 square feet of pavement will be replaced. Pile spacing is assumed to be
           6 feet.

   In February 1996, FEMA approved the scope of work described in the project narrative and
   estimated the costs at $43,604. In January 1997, nearly 2 years after the disaster, the
   Department’s Design Division provided justification to the Road Maintenance Division for
   proposed project construction costs and indicated that the estimate of the contract price was
   higher than the FEMA project estimate because certain items were not included in the
   estimate (e.g., structural concrete to install piles) and some unit prices were different (e.g.,
   structural excavations costs in the project estimate ($32/cubic yard) versus a contract


                                                2
      estimate ($75/cubic yard)). Regarding design and engineering costs, the Design Division
      indicated that the complexity of the project warranted a higher engineering cost. Despite the
      Department’s knowledge of budget increases and design changes to the original scope of
      work, there was no indication in FEMA or OES files that these budget or program changes
      were communicated to FEMA or OES until project completion and closure.

      In October 1997, the Department reported to the County Supervisors that the project was
      complete. We noted that the Department changed the design and specifications of the project
      and essentially constructed a steel and concrete retaining wall at a significant increase in
      cost. In May 1999, FEMA closed the project and, in July 1999, supplemented the project by
      approving $148,522 in additional project costs, including total engineering costs of $63,358.2
      The narrative for the supplemental funding provided by FEMA recognized that the
      Department constructed the retaining wall with a different design than that specified in the
      original project, and a significant portion of the overrun was attributed to design and
      engineering costs. In spite of the significant cost overruns, the Region determined that the
      completed retaining wall constituted a reasonable approach to the restoration of the damaged
      roadway. Further, the Region stated that, although assistance is limited to the work
      necessary to restore the pre-disaster function of the facility, FEMA does not normally limit
      work to a specific repair scheme. We agree that FEMA does not normally specify a repair
      scheme when approving construction projects but disagree that the additional funding should
      have been provided for the following reasons:

      •   The Department did not request additional funding prior to incurring the additional costs.
          According to Federal regulation 44 CFR 13.30(c)(2), the Department is required to obtain
          prior written approval for any budget revision which would result in the need for
          additional funds. In January 1997 and prior to construction, the Department was aware
          of the need for additional funds when the Design Division informed the Roads
          Maintenance Division of the proposed construction cost increases.

      •   The Department did not obtain prior FEMA approval for changes in the scope of work.
          According to Federal regulation 44 CFR 13.30(d)(1), the Department is required to
          obtain prior written approval from the awarding agency whenever any revision of the
          scope or objectives of a project is anticipated (regardless of whether there is an
          associated budget revision requiring prior approval). While the FEMA approved scope
          of work was specific as to nature of the construction project, the Department changed and
          improved the design and construction method without seeking Region approval.
          According to Federal regulation 44 CFR 206.203(d)(1), if a subgrantee desires to make
          improvements, but still restore the pre-disaster function of a damaged facility, the



2
    The project estimate for engineering costs was $4,321 whereas the Department claimed $63,358 for these same
    costs.


                                                         3
    grantee’s approval must be obtained, and funding for such improved projects will be
    limited to the Federal share of the approved estimate of eligible costs.

•   The Department did not request OES approval of a budget/project revision. According to
    Federal regulation 44 CFR 13.30(f)(3), any Department requests for prior approval will
    be addressed in writing to OES, and OES will obtain FEMA’s approval before approving
    the Department’s request.

•   According to Federal regulation 44 CFR 206.204(e), subgrantees may find during project
    execution that cost overruns, due to such things as variations in unit prices and change in
    scope of eligible work, are necessary. In such cases, subgrantees are required to evaluate
    each overrun, and, when justified, submit a request for additional funding through the
    grantee to the Region for a final determination. While the Department may have
    considered the project as being underway due to its earlier design efforts (even though
    actual construction did not begin until after April 1997), it did not request additional
    funding until project closure in May 1999, even though proposed project cost were over 4
    times the FEMA project estimate.

•   Time extensions required by Federal regulation 44 CFR 206.204(c) and (d) were not
    requested, justified, or approved by FEMA until the project was completed and closed in
    May 1999, over 4 years after the disaster occurred. We found no extenuating
    circumstances or unusual project requirements beyond the control of the Department that
    were brought forward to OES, or a justification from OES to the Region detailing reasons
    for a construction delay and project completion. Contrary to Federal regulation, FEMA
    retroactively approved a time extension when it closed the project.

In addition to OES and Department non-compliance with the provisions of Federal
regulations, we considered other aspects of this project to assess whether additional FEMA
funding was justified. Those considerations are discussed below:

•   It was not apparent from FEMA, OES, or Department files that the additional costs of
    designing, engineering, and constructing the retaining wall were “triggered” by existing
    codes and standards. In fact, the geotechnical investigation of the area stated that the
    Department should comply with Section 305-1.3 of the Standard Specifications for
    Public Works Construction for pile installation only and that wood or concrete lagging
    would be appropriate. According to Federal regulation 44 CFR 206.226(b), codes and
    standards must: (1) apply to the type of repair or restoration required, (2) be appropriate
    to the pre-disaster use of the facility, (3) be in writing and formally adopted before
    project approval, (4) apply uniformly to all similar types of facilities, and (5) be enforced
    during the time any existing code or standard was in effect.




                                             4
   •   The steel and concrete retaining wall may have been constructed to stabilize/mitigate a
       landslide area. The geotechnical investigation completed by the Department in December
       1995, nearly 2 months before the project was approved, stated that the retaining wall
       proposed in its report would stabilize the outboard edge of affected site but because it
       was located upslope of the landslide that caused the road failure, the landslide mass will
       not be stabilized. In addition, the report noted that the affected roadway was underlain
       by a larger, ancient landslide complex that was not investigated, and therefore, mitigation
       efforts were unknown. FEMA’s landslide policy, dating back as far as March 1984,
       states that if a site is unstable, the applicant must first stabilize the site, after which the
       most cost-effective method of restoring the facility to its pre-disaster condition is eligible
       for FEMA funding. It was not apparent from the geotechnical investigation that the
       landslide area was sufficiently stable to allow for permanent repairs or that any
       cost/benefit analysis had been accomplished to determine the cost-effectiveness of the
       Department’s retaining wall design.

   The foregoing discussion highlights grants and program management non-compliance at the
   subgrantee (Department) and State (OES) levels. In addition, the Region’s retroactive
   approval of budget/scope revisions and time frames for project completion does not hold the
   Department or OES responsible for adhering to Federal regulations. Further, there is no
   indication that the Region considered other aspects of the project (e.g., landslide stability) or
   sufficiently assessed the revised scope of the improved project before awarding supplemental
   funding. As such, we are recommending that claimed costs be limited to the original project
   estimate because we could not determine what the actual design, engineering, and
   construction costs would have been if the scope of the project had been accomplished as
   approved. (This is consistent with Federal regulation 44 CFR 206.203(d)(1) which limits
   funding on an improved project to the original damage estimate.) Therefore, we are
   questioning $148,522 ($192,126-$43,604).

B. Unsupported Fringe Benefits Costs on Overtime Labor. The Department claimed fringe
   benefits costs on its force account overtime labor that were not supported with sufficient
   documentation. The Department used fringe benefits rates of 44.85 percent on its regular
   pay and 18.81 percent on the overtime pay. We determined that the fringe benefits rate for
   regular pay was reasonable, however, the rate for the overtime labor was overstated because
   it included costs for retirement, sick leave, and unemployment insurance. Normally, these
   costs are based on the regular salaries of employees and do not vary with the payment of
   overtime costs. Based on records provided by the Department, we determined that, at the
   time of the disaster, the actual fringe benefits rate for overtime, excluding retirement, sick
   time, and unemployment insurance, was 3.36 percent. The Department did not provide us
   any additional documentation to support that these costs were eligible for FEMA
   reimbursement. The unsupported fringe benefits costs for overtime applicable to each
   project we reviewed is shown below:



                                                 5
                                    Fringe Benefits    Actual Costs of Unsupported Fringe
     DSR        Force Account      Costs Claimed For Fringe Benefits For Benefits Costs For
      No.         Overtime         Overtime (18.81%) Overtime (3.36%)         Overtime
     06254         $ 820.40             $ 154.32           $ 27.57           $ 126.75
     26046          23,161.36             4,356.65           778.22            3,578.43
     75877           5,834.73             1,097.51           196.05              901.46
     95460          23,252.03             4,373.71           781.27            3,592.44
     20297          12,575.99             2,365.54           422.55            1,942.99
     95403           2,591.76               487.51            87.08              400.43
     95407           2,717.02               511.07            91.29              419.78
     95425           9,894.86             1,861.23           332.47            1,528.76
     95482          11,144.46             2,096.27           374.45            1,721.82
     Total        $91,992.61           $17,303.81         $3,090.95         $14,212.86

   According to Federal regulation 44 CFR 13.20(b)(6), accounting records must be supported
   by source documentation such as cancelled checks, paid bills, payrolls, time and attendance
   records, contract and subgrant award documents. Also, according to Office of Management
   and Budget Circular A-87, Attachment B, paragraph 11d(1), the costs of fringe benefits are
   allowable to the extent that the benefits are reasonable and are required by law, governmental
   unit-employee agreement, or an established policy of the governmental unit. Because the
   fringe benefits rate applied to overtime labor was not supported by source documentation and
   was not reasonable, we question $14,213.

                                   RECOMMENDATIONS

We recommend that the Regional Director, in coordination with OES, disallow $162,735 of
questionable costs.

             DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed our audit results with Department officials on September 12, 2002. Those officials
disagreed with our findings. On September 12, 2002, and again on December 12, 2002, we
discussed our audit results with OES officials and those officials withheld comment pending
receipt of the final report. We discussed our audit with Region IX officials on January 9, 2003.

Pursuant to FEMA Instruction 1270.1, please advise this office by March 17, 2003, of actions
taken to implement our recommendation. Should you have any questions concerning this report,
please contact me at (510) 627-7011. Key contributors to this audit were Ravinder Anand and
Gloria Conner.




                                               6
                                                                             Exhibit


                     Los Angeles County Department of Public Works
                                  Alhambra, California
                          FEMA Disaster Number 1046-DR-CA


                                                  Costs
   Project       Amount         Amount         Disallowed   Questioned    Finding
   Number       Awarded         Claimed         By FEMA        Costs     Reference
    06254      $ 368,766      $ 368,766       $         0    $     127       B
    11441         192,126        192,126                0      148,522       A
    26046         327,970        327,970                0        3,578       B
    48549         185,350        185,350                0            0
    75877         129,492        129,492                0          902      B
    95460         253,036        253,036                0        3,592      B
    95469         306,353        872,402    ( 566,049)               0
    95486         148,177        972,708    ( 824,531)               0
    98603         135,790        135,790                0            0
    20260          52,500         87,715    (      35,215            0
    20297          95,509         95,509                0        1,943      B
    75884          81,757         82,414    (        657)            0
    95403          54,152         54,152                0          400      B
    95407          61,842         61,842                0          420      B
    95425          67,867         67,867                0        1,529      B
    95482          51,070         51,070                0        1,722      B
    Totals     $2,511,757     $3,938,209    ($1,426,452)     $162,735




Legend:      A - Work Beyond the Scope of an Approved Project
             B - Unsupported Costs




                                           7
